    January 27, 2005




Information Technology
 Management
Management of Information
Technology Resources Within DoD
(D-2005-029)




               Department of Defense
           Office of the Inspector General
 Quality               Integrity       Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
BMMP                  Business Management Modernization Program
DITPR                 DoD Information Technology Portfolio Repository
EA                    Enterprise Architecture
FISMA                 Federal Information Technology Security Management Act
FMFIA                 Federal Managers Financial Integrity Act
GAO                   Government Accountability Office
GIG                   Global Information Grid
IG DoD                Inspector General Department of Defense
IT                    Information Technology
ITMA                  Information Technology Management Application.
MID                   Management Initiative Decision
OMB                   Office of Management and Budget
         Office of the Inspector General of the Department of Defense
Report No. D-2005-029                                                  January 27, 2005
  (Project No. D2004AL-0139)

            Management of Information Technology Resources
                             Within DoD

                                Executive Summary

Who Should Read This Report and Why? Officials responsible for management of
DoD information technology and officials responsible for the acquisition and
management of information systems should read this report. The report discusses the
need to establish an inventory of DoD information systems and build a consistent
governance structure for information technology that will enhance management of DoD
information resources and allow DoD to respond accurately to information requests from
Congress and the Office of Management and Budget.

Background. The E-Government Act of 2002, Public Law 107-347, title III, “Federal
Information Security Management Act,” requires Federal agencies to develop, document,
and implement an agencywide information security program and report annually to
Office of Management and Budget and Congress on the adequacy and effectiveness of
information security policies, procedures, and practices. The Federal Information
Security Management Act also requires that each agency develop and maintain an
inventory of its major information systems.

The Office of Management and Budget Memorandum M-04-25, “FY 2004 Reporting
Instructions for the Federal Information Security Management Act,” August 23, 2004,
asks agencies about their inventory of major information systems and states that agencies
must provide a quarterly update to the Office of Management and Budget on agency
information technology security performance measures. The quarterly reports will allow
the Office of Management and Budget to assess the security status of information
technology for each agency. Office of Management and Budget Circular A-130,
“Management of Federal Information Resources,” November 28, 2000, establishes policy
for information resource management and requires agencies to use a capital planning and
investment control process that includes use of information technology portfolios.
Finally, Office of Management and Budget Circular A-123 “Management Accountability
and Control,” June 21, 1995, requires agencies to report annually on management control
weaknesses.

Results. To align information technology investments with mission needs and achieve
effective portfolio management, DoD officials should establish a definition for an
information system and use it to develop and maintain an enterprisewide inventory of
information systems; report the lack of an accurate or complete inventory as a material
management control weakness; institutionalize the policy on information technology
portfolio management stated in the Deputy Secretary of Defense memorandum of
March 22, 2004, and issue a Management Initiative Decision on governance and
management of information technology portfolios. These steps will allow DoD to better
prepare and more accurately respond to Office of Management and Budget and
congressional inquiries, report on expenditures and planned investments, and identify,
select, and control investments through the capital planning and investment control
process. Finally, the steps will help ensure the integrity of information and reduce the
risk of compromise to information technology investments. See the Finding section of
the report for the detailed recommendations.

Management Comments. We provided a draft of this report on December 20, 2004.
No management comments were received. Therefore, we request that the Under
Secretary of Defense (Comptroller)/Chief Financial Officer and the Assistant Secretary
of Defense for Networks and Information Integration/Chief Information Officer comment
on this final report by February 28, 2005.




                                            ii
Table of Contents

Executive Summary                                                          i

Background                                                                1

Objectives                                                                3

Finding
     Transforming the DoD Management Approach to Information Technology    4

Appendixes
     A. Scope and Methodology                                             13
          Management Control Program Review                               13
     B. Prior Coverage                                                    15
     C Legislation for Management of Federal Information Resources        17
     D. DoD Information Systems’ Databases                                18
     E. Report Distribution                                               19
Background
           Federal Information Security Management Act. The E-Government Act of
           2002, Public Law 107-347, title III, Federal Information Security Management
           Act (FISMA), requires Federal agencies to develop, document, and implement an
           agencywide information security program and report annually to the Office of
           Management and Budget (OMB) and the Congress on the adequacy and
           effectiveness of information security policies, procedures, and practices.

           FISMA requires that each agency develop and maintain an inventory of its major
           information systems to support information resource management (resource
           management). Resource management is the way in which an agency manages its
           information resources, including information and related resources such as
           personnel, equipment, funds, and information technology (IT), to achieve the
           agency’s mission. FISMA also cites specific resource management actions in
           existing legislation that include:

                    •   inventorying information resources,

                    •   planning, budgeting, acquiring, and managing IT, and

                    •   monitoring, testing, and evaluating information security controls.

           Appendix C provides details on existing resource management legislation cited by
           FISMA.

           OMB FISMA Reporting Instructions. OMB Memorandum M-04-25 “FY 2004
           Reporting Instructions for the Federal Information Security Management Act,”
           August 23, 2004, provides agencies with updated instructions for FY 2004
           reporting requirements. The instructions include questions that each agency must
           answer in areas such as performance measures for IT security and inventory of
           major information systems. The instructions state that OMB expects agencies to
           have an inventory of major information systems and that agencies must provide
           OMB with quarterly updates on their IT security performance measures for OMB
           to use to assess the status of agency IT security. In addition, agencies must report
           IT security weaknesses in the agency FISMA Report. Significant deficiencies1
           must also be reported as material weaknesses under the Federal Manager’s
           Financial Integrity Act (FMFIA).

           OMB Guidance on the Management of Federal Information Resources.
           OMB Circular A-130, “Management of Federal Information Resources,”
           November 28, 2000, establishes policy for managing information resources.
           Circular A-130 requires agencies to create an enterprise architecture (EA), use a
           capital planning and investment control process, and maintain an inventory of
           major information systems.

1
    A significant deficiency is a weakness in the agency overall information systems security or management
    control structure that significantly restricts the ability of the agency to carry out its mission or
    compromises the security of its information systems or other resources, operations, or assets.



                                                      1
        EA Defined. The EA is the description and documentation of the current
and desired relationships among business and management processes and IT,
including a description of the current and target architectures. The agency capital
planning and investment control process builds from the current architecture to
transition into the target architecture. The EA must be supported with a complete
inventory of agency information resources and must include appropriate
information security controls.

        Capital Planning and Investment Control Process. OMB guidance
defines the capital planning and investment control process as an ongoing
identification, selection, control, and evaluation of investments for information
resources. The process includes establishing security controls, a portfolio of
major information systems, and an IT Capital Plan. A portfolio consists of
selected IT investments that are managed to prevent redundancy of existing or
shared IT capabilities. The IT Capital Plan is the implementation plan for the
budget year.

       Major Information System. Circular A-130 defines a major information
system as one that requires special management attention because of its
importance to the agency mission; its high development, operating, or
maintenance costs; or its importance in the administration of agency programs,
finances, property, or other resources.

Global Information Grid (GIG) Overarching Policy. DoD Directive 8100.1,
“Global Information Grid (GIG) Overarching Policy,” September 19, 2002,
provides policy and assigns responsibilities for the GIG architecture and
configuration management. The GIG architecture is the globally interconnected,
end-to-end set of information capabilities, associated processes, and personnel for
collecting, processing, storing, disseminating, and managing information on
demand to war fighters, policy makers, and support personnel. The GIG supports
all DoD missions with IT assets. Directive 8100.1 requires the establishment and
maintenance of an enterprisewide inventory of GIG assets and designates the GIG
architecture as the IT architecture required by the Clinger-Cohen Act of 1996.
DoD Component heads are required to populate and maintain their portion of the
GIG asset inventory and ensure that their architectures are consistent with the
GIG architecture.

FMFIA Reporting Guidance. OMB has issued a circular and a memorandum
that addresses FMFIA reporting.

       OMB Circular A-123. OMB Circular A-123, “Management
Accountability and Control,” June 21, 1995, was issued under the authority of the
FMFIA of 1982. Circular A-123 requires agencies to establish, assess, correct,
and report on management controls. In addition, Circular A-123 defines material
weaknesses as those management control deficiencies that the agency head
determines to be significant enough to report outside the agency. Further,
Circular A-123 requires agencies to develop corrective action plans for all
material weaknesses, and assess and report progress against those plans
periodically. Each agency must report annually material weaknesses in
management controls to the President and Congress.



                                     2
            OMB Memorandum. OMB memorandum “FY 2004 Performance and
    Accountability Reports and Reporting Requirements for the Financial Report of
    the United States Government,” July 22, 2004, provides guidance on preparation
    and submission of agency Performance and Accountability Reports. The OMB
    memo indicated that preparation of the Performance and Accountability Report
    satisfies agency reporting requirements for the FMFIA of 1982. The Performance
    and Accountability Reports are submitted to OMB and Congress.

    DoD Portfolio Management Policy. Deputy Secretary of Defense
    memorandum, “Information Technology Portfolio Management,”
    March 22, 2004, establishes DoD policy and assigns responsibilities for managing
    IT investments as portfolios. The Clinger-Cohen Act of 1996 mandates the use of
    a capital planning and investment control process for IT acquisition, and OMB
    Circular A-130 mandates that the capital planning and investment control process
    include portfolio management. The Deputy Secretary of Defense assigned the
    DoD Chief Information Officer with the responsibility to institutionalize the
    policy within 180 days to become part of the DoD Directive system. DoD
    Directives transmit information to all DoD Components on how to initiate,
    govern, or regulate actions.

    Management Initiative Decision. A Management Initiative Decision (MID)
    document is designed to institutionalize management reform decisions. A draft
    MID pertaining to IT portfolio governance in the spring of 2004 sought to
    establish a framework for managing IT investments as portfolios. Governance is
    a single, integrated, hierarchical structure with enterprisewide standards and
    oversight of IT transformation within DoD. The oversight process describes how
    and by whom the transformation will be implemented within the DoD.


Objectives
    The objective of the audit was to assess the DoD implementation of title III,
    section 301 “Federal Information Security Management Act of 2002,” Public
    Law107-347. Specifically, we determined whether adequate processes and
    controls were in place to develop and report on the status of DoD IT systems. See
    Appendix A for a discussion of the scope and methodology and the review of the
    management control program. See Appendix B for prior coverage related to the
    objectives.




                                        3
                   Transforming the DoD Management
                   Approach to Information Technology
                   To align information technology investments with mission needs and
                   achieve effective portfolio management, DoD officials must take the
                   following steps:

                   •   Establish a definition for an information system and use it to develop
                       and maintain an enterprisewide GIG inventory of information systems,

                   •   report the lack of an accurate or complete DoD inventory of GIG
                       systems as a material management control weakness to OMB and
                       Congress,

                   •   institutionalize the policy on IT portfolio management stated in the
                       Deputy Secretary of Defense memorandum, March 22, 2004, which
                       requires IT investments to be managed as portfolios and integrated
                       into the GIG architecture, and

                   •   issue a MID on the governance and management of IT portfolios that
                       allows top-level officials to oversee and approve new or improvements
                       to existing information systems.

                   These steps will allow DoD to better prepare and more accurately respond
                   to the OMB and congressional inquiries on the status of DoD information
                   systems, to report on DoD expenditure and planned investments, and
                   identify, select, and control investments through the capital planning and
                   investment control process. The steps will also help ensure the integrity
                   of information provided to DoD officials and reduce the risk of
                   compromise to IT investments. They will set into motion the management
                   process for information systems that aligns the DoD EA with the
                   management structure for IT systems that was envisioned by the OMB and
                   the Congress.


Databases for DoD Information Systems
           DoD developed and maintains four enterprise-level databases: the Information
           Technology Management Application (ITMA); the IT Registry; the Business
           Management Modernization Program (BMMP)2; and the DoD Information
           Technology Portfolio Repository (DITPR). Each database uses different criteria
           for collecting data about information systems to serve different purposes. See
           Appendix D for a description of each DoD database. The Government


2
    The DoD BMMP is an effort to transform and modernize DoD business and financial processes and
    systems. DoD prepared an information system inventory to support the BMMP. We refer to the
    inventory as the BMMP database. See Appendix D for additional information.



                                                    4
Accountability Office (GAO) and the Inspector General, Department of Defense
(IG DoD) reviewed three of the databases which provided insight into their
content and structure.

Insight into the Databases. The GAO conducted a review to identify FY 2004
estimated funding for DoD business systems and to determine whether DoD has
effective control and accountability over its business system investments. The
GAO Report No. 04-615, “DoD Business Systems Modernization: Billions
Continue to Be Invested with Inadequate Management Oversight and
Accountability,” May 27, 2004, provided vital information about the content of
the ITMA, IT Registry, and BMMP. The report indicated that:

       •   The ITMA database is used to collect system information to develop
           the DoD annual IT budget request, but it includes initiatives and
           programs that are not IT systems.

       •   The IT Registry database used the terms mission critical and mission
           essential to identify information systems, but allowed each DoD
           Component to determine whether a system should be reported as
           mission critical or mission essential. This self-reporting practice
           would not necessarily capture the universe of business systems.

       •   The BMMP database included systems related to DoD business
           operations; however, DoD did not develop a standard definition of a
           business system.

       •   The ITMA, IT Registry, and BMMP system inventory databases
           contain varying information that overlaps.

       •   DoD was attempting to reconcile the three databases.

One of the GAO report’s recommendations was that the Secretary of Defense
direct the Under Secretary of Defense (Comptroller) and the Assistant Secretary
of Defense for Networks and Information Integration to develop a standard
definition for DoD Components to use in identifying business systems. The DoD
response to the GAO report referenced the definition articulated in the Chief
Information Officer’s July 13, 2004, memo. That memo included a decision tree
that used the system definition in DoD Directive 8500.1 “Information
Assurance,” October 2002, as a foundation for defining a system and then
provided additional guidance and examples for clarification. The DoD Directive
defined a system as a set of information resources organized for the collection,
storage, processing, maintenance, use, sharing, dissemination, disposition,
display, or transmission of information. It includes automated information system
applications, enclaves, outsourced IT-based processes, and platform IT
interconnections.

The Chief Information Officer’s July 13, 2004, memo indicated that the definition
and decision tree applied to all mission areas and domains and would be used to
populate a new database--the DITPR. All DoD systems meeting the definition
were to be entered into DITPR by January 2005. On October 20, 2004, the DoD
Chief Information Officer issued another memo requiring Components to provide


                                    5
           data on all business systems or families of systems3 with annual expenditures of
           $1 million or more to DITPR by January 14, 2005. The October memo required
           DoD Components to use the definition in DoD Directive 8500.1 as a foundation
           for defining a system, but provided yet further guidance and clarification than was
           used in the July 13, 2004 memo. The October memo stated that data on non-
           business systems or families of systems may be provided, but was not required.
           As a result, the October 20, 2004, memo reduced the scope of the original DITPR
           data call for January 2005 from DoD systems in all mission areas and domains to
           only business systems or families of systems. The July 13, 2004, memo and the
           October 2004 memo both required that any systems added to DITPR that were not
           already in the IT Registry must be added to the IT Registry.

           The ITMA, IT Registry, and BMMP collected information for different purposes
           about various systems; thus, they did not use a consistent definition of what
           constitutes an information system. In addition, the three databases included
           varying information that overlapped and were not reconciled to each other. The
           ITMA collected system information for the DoD annual IT budget request, but it
           also included initiatives and programs that were not IT systems. The IT Registry
           defined its systems as mission critical and mission essential, but allowed each
           DoD Component to decide what to report. The BMMP did not use a standard
           definition for a business system.

           The first step in building an inventory is to define an information system. The
           definition used for DITPR and the decision tree outlined in the July 13, 2004,
           memo will help DoD define the universe of business systems but not the entire
           inventory of information systems. To assist DoD IT managers, DoD must decide
           what to include in its information systems inventory to help frame the definition
           of an information system. The structure established in the Chief Information
           Officer’s July 2004 and October 2004 memorandums is a start; however,
           additional work is needed.

           Reliability of DoD Databases. DoD included various information from multiple
           sources, including data calls to DoD Components, in its databases of information
           systems. The GAO or the IG DoD reviewed three of the databases and identified
           conditions that affected the usefulness of the data.

                  ITMA. DoD uses the ITMA database to generate information to prepare
           budget-related submissions. GAO Report No. 04-615 reported that the ITMA
           database also includes initiatives and programs that are not IT systems.

                   IT Registry. The IT Registry includes DoD mission-critical and mission-
           essential systems. DoD Components are responsible for populating the IT
           Registry, updating and maintaining the information, and certifying the accuracy
           and completeness of the data. According to December 2003 IT Registry
           guidance, Components are to add all nonmission-critical and nonmission-essential
           systems to the IT Registry by September 30, 2006. The IG DoD Report No. D-
           2003-117, “Systems Inventory to Support the Business Enterprise Architecture,”
           July 10, 2003, stated that the DoD IT Registry would not necessarily capture the

3
    A family of systems is a set of independent systems that can be arranged or interconnected in various
    ways to provide different capabilities.



                                                       6
universe of business systems because IT Registry guidance did not require all
business management systems to be reported, and because system definitions in
the registry guidance are subject to interpretation. In addition, IG DoD Report
No. D-2003-008, “Implementation of the Government Information Security
Reform by the Defense Finance and Accounting Service for the Defense
Integrated Financial System,” October 7, 2002, stated that DoD did not require
the IT Registry software to include data integrity controls that would ensure the
accuracy, completeness, and validity of information in the database.

         BMMP. As of April 2003, DoD used multiple sources, including data
calls, to identify an inventory of 2,274 business systems. In July 2004, the Acting
Under Secretary of Defense (Comptroller) testified that DoD was establishing a
progressively more comprehensive business system inventory and had identified
more than 4,000 systems, with more systems likely to be identified in the future.
In GAO Report No. 04-615, GAO determined that DoD does not have an accurate
inventory of its business systems because it lacks a central repository, a
systematic way to identify its business systems, and a standard definition of what
constitutes a business system. The report stated that the initial repository of 2,274
DoD business systems is neither complete nor informative enough for use in
decision making.

Although each database serves a different purpose, each experienced problems in
the ability to use the data to develop a complete and accurate inventory of DoD
information systems resulting from problems with the content, accuracy, or
completeness of the data. FISMA reporting instructions and guidance require the
security controls of information systems to be monitored, tested, and evaluated.
OMB requires agencies to provide quarterly updates of their IT security
performance measures that will permit OMB to assess agency IT security status.
DoD information systems must be protected to ensure an appropriate level of
confidentiality, integrity, availability, and accountability and to ensure that DoD
operations and missions are not disrupted. Until a complete and accurate
inventory is identified and verified, there is little assurance that DoD knows the
status of its systems.

DoD Instruction 5200.40, “DoD Information Technology Security Certification
and Accreditation Process (DITSCAP),” December 30, 1997, creates the DoD
process for security certification and accreditation of information systems. The
objective of the process is to establish a standard approach to protect and secure
the entities that comprise the Defense Information Infrastructure. Standardizing
the certification and accreditation process minimizes the risks associated with
nonstandard security implementations across shared infrastructure and end
systems. To ensure that information systems are protected and subjected to the
certification and accreditation process, DoD must be aware of the existence of its
information systems. Otherwise, there is no assurance that the DoD enterprise
itself is adequately protected.




                                      7
Material Management Control Weakness
    FMFIA Reporting for FY 2003. OMB Circular A-123, “Management
    Accountability and Control,” June 21, 1995, was issued under the authority of the
    FMFIA of 1982 and requires agencies to report annually on management control
    weaknesses. For FY 2003, DoD reported nine systemic weaknesses in the
    FMFIA section of its Performance and Accountability Report. The weaknesses
    identified that the DoD financial and business management systems and processes
    were not fully integrated and did not provide reliable, timely, and accurate
    information. In addition, DoD officials reported that they need to better manage
    IT and need assurance that IT is adequately protected. DoD also reported a
    weakness in the IT Capital Investment Process in that the process does not
    confirm that the best investments are selected, deliver expected benefits, or
    perform as expected.

    Inventory of Major Information Systems. In answering OMB questions on the
    information system inventory, DoD stated that it uses the DoD IT Registry to
    maintain an inventory of DoD major information systems. However, past reviews
    found that the IT Registry would not necessarily include all major systems and
    was not integrated with other information system databases. As a result, DoD
    cannot be assured that it has a complete inventory of major information systems.
    This is a material management control weakness in DoD resource management
    that DoD did not report as a component of the systemic weakness in IT
    management and assurance under the FMFIA.

    If DoD does not have a complete inventory of major information systems,
    planning improvement or system replacement is difficult, answers to questions
    from OMB or Congress on major information systems may not be accurate, and
    information assurance is at risk because there is little assurance that all systems
    are adequately protected. In addition, DoD cannot build an EA and initiate the
    capital planning and investment control process. DoD must report the lack of an
    inventory of major information systems as a component of the systemic weakness
    in IT management and assurance in future DoD FMFIA reporting until DoD can
    develop and manage a GIG information system inventory.


Portfolio Management Process-Recent Events
    DoD Portfolio Management Policy. The Deputy Secretary of Defense
    memorandum, “Information Technology Portfolio Management,” March 22,
    2004, established DoD policy and assigned responsibilities for managing IT
    investments as portfolios. Portfolio management is defined as the management of
    selected groupings of IT investments using integrated architectures, measures of
    performance, risk management techniques, transition plans, and portfolio
    management strategies. The Clinger-Cohen Act of 1996 mandated the use of a
    capital planning and investment control process for IT acquisition, and OMB
    Circular A-130 mandated that the capital planning and investment control process
    include portfolio management. The Deputy Secretary’s memo stated that the
    decisions on which investments to make, modify or terminate should be based on


                                         8
the GIG integrated architecture, mission area goals, architecture, risk, potential
return, and outcome goals and performance. The memo also stated that the
portfolio management process should consist of the following core activities.

       •   analysis that links mission area goals to DoD enterprise vision, goals,
           and objectives and how those will be achieved and measured;
           identifies gaps and opportunities; identifies risks and how they will be
           mitigated; provides a continuous process improvement; and
           determines strategic direction for mission area activities and processes,

       •   selection that identifies the best mix of IT investments to achieve
           outcome goals and plans and transition to “to be” architectures,

       •   control which ensures that a portfolio and individual projects in the
           portfolio are acquired in accordance with cost, schedule, performance,
           and risk baselines and are within the scope of the currently approved
           version of the GIG architecture, and

       •   evaluation that routinely and systematically assesses and measures
           actual contributions of the portfolio as well as supports adjustments to
           the mix of portfolio projects as necessary.

The guidance also sets policy that integrated architectures require mission area
domains and DoD Component perspectives to better understand the organization
and the capability gaps between the current and future environments. A mission
area is a defined area of responsibility whose functions and processes contribute
to accomplishment of the mission. In March 2004, the Deputy DoD Chief
Information Officer testified that DoD uses the following three mission areas for
portfolio management: war fighter, business, and enterprise information
environment. Domains within mission areas are a common collection of related,
dependent information capabilities. An integrated architecture consists of
multiple views that facilitate integration and promote interoperability and
compatibility among related architectures.

The Deputy Secretary’s March 22, 2004, memo states that integrated architectures
must be developed to assess the process improvement opportunities within and
across all levels, determine interoperability and capacity requirements, promote
standards, identify and implement information assurance requirements, formulate
and target investments to improve data and information management, and identify
the required capabilities of the technical infrastructure.

To implement his policy, the Deputy Secretary assigned the following
responsibilities to the DoD Chief Information Officer:

           •   Ensure that business and war fighting integrated architectures
               comply with the GIG.

           •   Establish a process for maximizing value and assessing and
               managing IT investment risk.




                                      9
               •   Coordinate with the Principal Staff Assistants and the Chairman of
                   the Joint Chiefs of Staff to provide a core set of uniformly applied
                   criteria for portfolio management and selection.

               •   Institutionalize the policy within 180 days to become part of the
                   DoD Directive system. DoD Directives provide information to
                   DoD Components on initiating, governing, or regulating actions.

    The policy also assigns responsibility to the DoD Principal Staff Assistants to
    establish business domains in coordination with the DoD Chief Information
    Officer and a repeatable portfolio management process that includes a governance
    structure.

    As of December 2004, the policy has not been institutionalized. The Deputy
    Secretary’s memo began a process within DoD to rethink how IT investments
    should be acquired and managed more consistently with legislative requirements,
    to include the Paperwork Reduction Act of 1995, and subsequent OMB guidance.
    The Deputy Secretary’s memo stated that IT should be managed as portfolios, and
    the portfolio management process should be established and include certain core
    activities. The memorandum initiated a significant shift within the DoD on how it
    views and manages IT systems. DoD must now institutionalize the March 2004
    policy in a DoD Directive that mandates change in the way DoD views and
    manages IT investments.


Redefining the Management of IT Systems
    MID. A MID document is designed to institutionalize management reform
    decisions. A draft MID pertaining to IT portfolio governance in the spring of
    2004 indicated that IT investments were defined and managed using an
    individual, platform, or system approach rather than a mission approach. These
    approaches allowed duplicative investments in systems to deliver the same or
    similar capabilities.
    The draft MID instituted the concept of portfolio management and changed the
    management approach to IT. The MID established a governing authority to create
    and enforce policies to integrate the three DoD mission areas. The MID provides
    a framework that will allow mission area officials to manage IT investments as
    portfolios, implement DoD guidance, and finance activities within their areas.
    The mission area senior officials will define domains within their mission area,
    assign IT programs to a domain, and establish a governance process. The domain
    owners manage portfolios of information capabilities and services. The domain
    owners justify new capabilities; identify requirements for new programs; review,
    assess, and approve the DoD Components’ funding for IT programs; review
    programs for performance against capability requirements and schedules;
    maintain an inventory of systems in the domain; and develop and maintain a GIG-
    compliant domain architecture. A key point is that the MID requires the Principal
    Staff Assistants for the mission areas to finance activities of the mission areas and
    the DoD Chief Information Officer to issue DoD guidance for portfolio
    management.


                                         10
    DoD needs to enact a MID or comparable DoD Directive to implement
    congressional intent with regard to IT management, as expressed in the National
    Defense Authorization Act of FY 2005, to provide a consistent portfolio
    management process for all DoD mission areas, including domain review and
    approval of Component funding for all IT investments. The new guidance would
    significantly reduce the risk of Component stove-piping of IT systems and would
    fund and field only those IT investments needed to fulfill the DoD mission that is
    integrated into the overarching architecture.


Conclusion
    An asset inventory is the foundation for all portfolio management activities.
    Without a complete inventory of information systems, DoD cannot respond
    accurately to inquiries from Congress and OMB on the status of information
    systems, efficiently plan for future enhancements or replacement systems, prevent
    duplication of systems, report accurately on DoD expenditure for IT, and
    implement a system management process that is consistent with the EA. DoD
    assembled different databases for different purposes and used different definitions
    for an information system. The DITPR database is a positive step; however,
    additional efforts are needed. Before an inventory can be developed, DoD must
    develop a definition for an information system and use it consistently. Next, DoD
    must select a platform to host the inventory; establish procedures to address
    control of and input to the database; and establish a mechanism to oversee the
    effort, verify the input, and ensure that all information systems are entered.

    The requirement for an inventory has existed for a long time; however, DoD has
    not established a complete inventory of its information systems or consistently
    defined an information system. Until these tasks are accomplished, DoD must
    report its lack of a major information system inventory in its annual reporting to
    OMB and Congress. Finally, restructuring IT management within DoD will begin
    a management process for information systems that aligns the DoD EA with the
    management structure for information systems that OMB and Congress
    envisioned.

    The Deputy Secretary’s memo began a process within DoD that rethought how IT
    investments should be acquired and managed more consistently with legislative
    requirements such as the Paperwork Reduction Act of 1995 and subsequent OMB
    requirements. DoD must institutionalize the policy in the March 22, 2004, memo
    in a DoD Directive to mandate change in the way DoD views and manages IT
    investments. Directions in the draft MID and congressional intent pertaining to
    IT management in the National Defense Authorization Act for FY 2005 must also
    be implemented as a further step in redefining how DoD manages and funds its IT
    investments as portfolios.




                                        11
Recommendations
    1. We recommend that the Assistant Secretary of Defense for Networks and
    Information Integration:

           a.   Develop and staff a DoD Directive to:

                   (1) Establish a definition for an information system that applies to
    all mission areas;

                  (2) Require use of the definition to develop and maintain an
    enterprisewide inventory of information systems; and

                (3) Institutionalize the policy contained in the Deputy Secretary of
    Defense memorandum of March 22, 2004, on information technology portfolio
    management.

           b. Document in the DoD Federal Managers Financial Integrity Act and
    Federal Information Security Management Act Reports that DoD does not have
    an accurate or complete inventory of major information systems.

    2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer forward the draft Management Initiative Decision on
    governance and management of information technology portfolios to the Deputy
    Secretary of Defense for decision.


Management Comments Required
    The Under Secretary of Defense (Comptroller)/Chief Financial Officer and the
    Assistant Secretary of Defense for Networks and Information Integration/Chief
    Information Officer did not comment on a draft of this report. We request that the
    Under Secretary and the Assistant Secretary provide comments on the final
    report.




                                        12
Appendix A. Scope and Methodology
    We reviewed the Clinger-Cohen Act of 1996 and other legislation on resource
    management. We also reviewed the FISMA sections on information system
    security and inventory requirements, OMB guidance on resource management,
    the FMFIA, DoD documentation describing four DoD information system
    databases, and GAO and IG DoD audit reports on databases. Further, we
    reviewed documentation and guidance on IT investment portfolio management
    and a proposal to restructure the DoD management of IT investments.

    We used pertinent guidance to assess DoD resource management practices,
    specifically the development and maintenance of an inventory of major
    information systems. We also considered proposals to modify the overall
    management of DoD IT investments and assessed DoD compliance on FMFIA
    reporting. We reviewed data from May 1995 through November 2004.

    We performed this audit from April through December 2004 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    arrive at the conclusions in this audit report.

    Use of Technical Assistance. We did not use technical assistance to perform this
    audit.

    Government Accountability Office High-Risk Area. The GAO has identified
    several high-risk areas throughout the Federal Government. This report covers
    the Protecting Information Systems Supporting the Federal Government and the
    Nation’s Critical Infrastructures area. In addition, GAO also identified several
    high-risk areas in DoD. This report covers the Defense Systems Modernization
    high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We did not
    announce a review of the management control program as an audit objective
    because DoD recognized the management of IT and information assurance as a
    systemic weakness in the FY 2003 FMFIA report. Accordingly, we did not
    review management’s self-evaluation. However, we reviewed DoD compliance
    with the FISMA of 2002 requirement to maintain an agency inventory of major
    information systems to support resource management. We also reviewed the DoD
    FY 2003 FMFIA report.


                                        13
Adequacy of Management Controls. We identified a material management
control weakness for DoD as defined by DoD Instruction 5010.40. DoD
management controls for IT management and information assurance were not
adequate to ensure that DoD developed and maintained an enterprisewide
inventory of major information systems in accordance with the FISMA of 2002.
Recommendation 1., if implemented, will improve DoD compliance with the
FISMA inventory requirement. A copy of the report will be provided to the
senior official responsible for management controls in the Office of the Assistant
Secretary of Defense for Networks and Information Integration.




                                    14
Appendix B. Prior Coverage
      During the last five years, GAO and the IG DoD have issued 14 reports related to
      DoD management of IT resources. Unrestricted GAO reports can be accessed
      over the internet at http://www.gao.gov. Unrestricted IG DoD reports can be
      accessed at http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. GAO-04-907T, “Department of Defense: Long-standing
      Problems Continue to Impede Financial and Business Management
      Transformation,” July 7, 2004

      GAO Report No. GAO-04-376, “Information Security: Agencies Need to
      Implement Consistent Processes In Authorizing Systems for Operation,” June 28,
      2004

      GAO Report No. GAO-04-615, “DoD Business Systems Modernization: Billions
      Continue to Be Invested with Inadequate Management Oversight and
      Accountability,” May 27, 2004

      GAO Report No. GAO-04-731R, “DoD Business Systems Modernization:
      Limited Progress in Development of Business Enterprise Architecture and
      Oversight of Information Technology Investments,” May 17, 2004

      GAO Report No. GAO-04-551T, “Department of Defense: Further Actions
      Needed to Establish and Implement a Framework for Successful Financial and
      Business Management Transformation,” March 23, 2004

      GAO Report No. GAO-04-115, “Information Technology: Improvements Needed
      in the Reliability of Defense Budget Submissions,” December 19, 2003

IG DoD
      IG DoD Report No. D-2004-081, “Reporting of DoD Capital Investments for
      Information Technology,” May 7, 2004

      IG DoD Report No. D-2003-117, “Systems Inventory to Support the Business
      Enterprise Architecture,” July 10, 2003

      IG DoD Report No. D-2003-022, “FY 2002 Independent Assessment of the DoD
      Subset of Information Technology Systems for Government Information Security
      Reform Reported for FY 2001,” November 14, 2002

      IG DoD Report No. D-2003-008, “Implementation of the Government
      Information Security Reform by the Defense Finance and Accounting Service for
      the Defense Integrated Financial System,” October 7, 2002



                                         15
IG DoD Report No. D-2001-182, “Information Assurance Challenges-A
Summary of Results Reported April 1, 2000 Through August 22, 2001,”
September 19, 2001

IG DoD Report No. D-2001-175, “Application of Year 2000 Lessons Learned,”
August 22, 2001

IG DoD Report No. D-2001-096, “Management of Information Technology
Equipment, Office of the Secretary of Defense,” April 9, 2001

IG DoD Report No. D-2000-162, “Summary of Audits of Acquisition of
Information Technology,” July 13, 2000




                                 16
Appendix C. Legislation for Management of
            Federal Information Resources
   FISMA. Public Law 107-347, FISMA, requires agencies to develop and
   maintain an inventory of major information systems operated by or under the
   control of the agency and to use the inventory to support resource management
   activities. FISMA requires the inventory to support the preparation and
   maintenance of information resources under section 3506(b)(4), title 44, United
   States Code. The Paperwork Reduction Act of 1995 (Public Law 104-13)
   amended chapter 35, title 44, United States Code to include section 3506(b)(4)
   requiring an inventory of agency information resources.

   FISMA also requires the major system inventory to support IT planning,
   budgeting, acquisition, and management under section 3506(h), title 44, United
   States Code, subtitle III of title 40, United States Code, and related laws and
   guidance.

          •   The Paperwork Reduction Act of 1995 (Public Law 104-13) amended
              chapter 35, title 44, United States Code to include section 3506(h)
              requiring agencies to maximize the value and assess and manage risks
              of major information system initiatives by developing a process to
              select, control, and evaluate results of such initiatives.

          •   The Clinger-Cohen Act of 1996 (Public Law 106-104), section 5122
              supplemented section 3506(h), title 44, United States Code by
              requiring that agencies use a capital planning and investment control
              process to provide for selection, management, and evaluation of IT
              investments. Public Law 107-217 recodified the Clinger-Cohen
              requirement as section 11312 under subtitle III, title 40, United States
              Code.

   FISMA requires the major system inventory to support monitoring, testing, and
   evaluation of information security controls under subchapter II, title 44, United
   States Code. The National Defense Authorization Act for FY 2001, subtitle G,
   “Government Information Security Reform,” amended chapter 35, title 44, United
   States Code by inserting subchapter II, which requires agencies to establish, test,
   and evaluate information security controls. The Government Information
   Security Reform requirements have been replaced by the requirements of FISMA.

   FISMA requires the major system inventory to support preparation of the index of
   major information systems required under section 552(g), title 5, United States
   Code. The Electronic Freedom of Information Act Amendments of 1996
   amended section 552 of title 5 United States Code to add subsection (g) that
   required an index of agency major information systems.




                                       17
Appendix D. DoD Information Systems’
            Databases
   DoD developed four databases: the ITMA, the IT Registry, the BMMP, and the
   DITPR. Each database uses different criteria for collecting data about
   information systems and collects the data to serve different purposes.

   ITMA. According to the DoD Financial Management Regulation, the ITMA is a
   database application to plan, coordinate, edit, publish, and disseminate IT budget
   information for Congress and OMB. DoD Components are required to register
   their IT resources as initiatives in ITMA. Initiatives can be systems, families of
   systems, programs, projects, organizations, or activities.

   IT Registry. The FY 2001 National Defense Authorization Act requires DoD to
   maintain an inventory of mission-critical and mission-essential information
   systems. According to DoD IT Registry guidance, the DoD IT Registry is the
   enterprisewide systems inventory used to fulfill the Act’s requirements and to
   prepare reports in response to FISMA, OMB and Congress.

   BMMP. The DoD BMMP is an effort to transform and modernize DoD business
   and financial processes and systems. The program includes development of a
   business EA as a blueprint for DoD business transformation. Business processes
   include financial, logistical, personnel, and procurement processes. The FY 2003
   National Defense Authorization Act (Public Law 107-314) required DoD to
   develop an inventory of DoD systems to support the business EA that was based
   on a system definition to be developed by the Under Secretary of Defense
   (Comptroller). DoD responded by preparing an information system inventory to
   support the BMMP.

   DITPR. In July 2004, DoD issued guidance on a new database, entitled the
   DITPR, which will support DoD portfolio management by collecting data on
   DoD information systems in all mission areas and domains. The guidance
   requires submission of information on selected business systems, with data on
   remaining DoD information systems to be collected later. In October 2004, DoD
   issued additional guidance requiring data to be submitted on remaining business
   systems or families of business systems.




                                       18
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
   Director, Business Management Modernization Program
Under Secretary of Defense for Personnel and Readiness
Under Secretary of Defense for Intelligence
Assistant Secretary of Defense for Networks and Information Integration/Chief
   Information Officer
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Other Defense Organization
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        20
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition and Technology Management prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Thomas Bartoszek
Barry Gay
John Huddleston
James Mitchell
Alejandra Rodriguez
Vicky Sain
Christopher Scrabis
Kathryn Truex
